No. _____
In the

Supreme Court of the United States
__________________

BENJAMIN CALEB TROTT,
Petitioner,
v.
STATE OF MARYLAND,
Respondent.
__________________
On Petition for Writ of Certiorari
to the Court of Appeals of Maryland

__________________
PETITION FOR WRIT OF CERTIORARI
__________________
PAUL B. DEWOLFE
Public Defender
JEFFREY M. ROSS
Assistant Public Defender
Counsel of Record
Office of the Public Defender
Appellate Division
6 Saint Paul Street, Suite 1302
Baltimore, Maryland 21202-1608
(410) 767-8528
jeffrey.ross@maryland.gov
Counsel for Petitioner
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
1. Whether or under what circumstances the Fourth
Amendment permits courts to balance the risk of
harm posed by drunk driving against the
intrusiveness of a vehicle stop when determining
whether a Terry stop based on an anonymous tip is
supported by reasonable suspicion.
2. Whether the Terry stop in this case, which was
based on an anonymous and conclusory tip of an
“intoxicated driver,” was supported by reasonable
suspicion.

ii
STATEMENT OF RELATED PROCEEDINGS
State of Maryland v. Benjamin Caleb Trott, No.
0R90C7T, District Court of Maryland for Anne Arundel
County, Maryland.
State of Maryland v. Benjamin Caleb Trott, No. C-02CR-19-001378, Circuit Court for Anne Arundel County,
Maryland. Judgment entered November 14, 2019.
Benjamin Caleb Trott v. State of Maryland, No. 1853,
September Term, 2019, Maryland Court of Special
Appeals.
Benjamin Caleb Trott v. State of Maryland, Misc. No.
9, September Term, 2020, Maryland Court of Appeals.
Judgment entered April 23, 2021.

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
STATEMENT OF RELATED PROCEEDINGS . . . . ii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . v
PETITION FOR WRIT OF CERTIORARI . . . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL PROVISIONS INVOLVED. . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 2
REASONS FOR GRANTING THE WRIT. . . . . . . . . 7
I.

COURTS ARE DIVIDED OVER WHETHER
BALANCING THE RISK OF HARM POSED
BY DRUNK DRIVING AGAINST THE
INTRUSIVENESS OF THE STOP IS PART
OF THE REASONABLE SUSPICION
ANALYSIS. . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
A. Background. . . . . . . . . . . . . . . . . . . . . . . . . 9
B. The Conflict . . . . . . . . . . . . . . . . . . . . . . . 16

II.

THIS CONFLICT OVER THE SCOPE OF
THE REASONABLE SUSPICION
ANALYSIS IN POSSIBLE DRUNK
DRIVING CASES SHOULD BE RESOLVED
NOW. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

iv
III.

BALANCING THE RISK OF HARM POSED
BY DRUNK DRIVING AGAINST THE
INTRUSIVENESS OF THE STOP IS NOT A
PROPER PART OF THE REASONABLE
SUSPICION ANALYSIS. . . . . . . . . . . . . . . . 26

IV.

THERE WAS NOT REASONABLE
SUSPICION TO SEIZE PETITIONER . . . . 31

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35
APPENDIX
Appendix A Opinion in the Court of Appeals of
Maryland
(April 23, 2021) . . . . . . . . . . . . . . . App. 1
Appendix B Corrected Order in the Court of
Appeals of Maryland
(October 30, 2020) . . . . . . . . . . . . App. 30
Appendix C Certification Pursuant to Maryland
Rule 8-304 in the Court of Special
Appeals of Maryland
(October 6, 2020) . . . . . . . . . . . . . App. 34
Appendix D Official Transcript of Proceeding
Excerpt in the Circuit Court for Anne
Arundel County, Maryland
(October 29, 2019) . . . . . . . . . . . . App. 41

v
TABLE OF AUTHORITIES
CASES
Adams v. Williams,
407 U.S. 143 (1972). . . . . . . . . . . . . . . . . . . . . . . 12
Alabama v. White,
496 U.S. 325 (1990). . . . . . . . . . . . . . . . . . . . . . . 12
Anderson v. Dir., N. Dakota Dep’t of Transp.,
696 N.W.2d 918 (N.D. 2005). . . . . . . . . . . . . 19, 22
Arizona v. Johnson,
555 U.S. 323 (2009). . . . . . . . . . . . . . . . . . . . . . . 29
Bloomingdale v. State,
842 A.2d 1212 (Del. 2004) . . . . . . . . . . . . . . . . . 17
Brendlin v. California,
551 U.S. 249 (2007). . . . . . . . . . . . . . . . . . . . . . . 29
Camara v. Municipal Court,
387 U.S. 523 (1967). . . . . . . . . . . . . . . . . . . . . . . . 9
Chimel v. California,
395 U.S. 752 (1969). . . . . . . . . . . . . . . . . . . . . . . 27
Collins v. Com.,
142 S.W.3d 113 (Ky. 2004) . . . . . . . . . . . . . . 19, 20
Delaware v. Prouse,
440 U.S. 648 (1979). . . . . . . . . . . . . . . . . . . . 29, 30
Dunaway v. New York,
442 U.S. 200 (1979). . . . . . . . . . . . . . . . . . . . . . . 26
Florida v. J.L.,
529 U.S. 266 (2000). . . . . . . . . . . . . . . . . . . passim

vi
Harris v. Commonwealth,
668 S.E.2d 141 (Va. 2008), cert. denied,
558 U.S. 978 (2009). . . . . . . . . . . . . . . . . 19, 21, 31
McChesney v. State,
988 P.2d 1071 (Wyo. 1999) . . . . . . . . . . . . . . 19, 21
Mincey v. Arizona,
437 U.S. 385 (1978). . . . . . . . . . . . . . . . . . . . . . . 27
Navarette v. California,
572 U.S. 393 (2014). . . . . . . . . . . . . . . . . . . passim
People v. Pagano,
__ N.W.2d __, 2019 WL 2273357
(Mich. Ct. App. May 28, 2019),
rev’d, 2021 WL 1570350
(Mich. Apr. 22, 2021) . . . . . . . . . . . . . . . . . . 19, 21
People v. Wells,
136 P.3d 810 (Cal. 2006), cert. denied,
550 U.S. 937 (2007) . . . . . . . . . . . . . . . . . . . 17, 19
Richards v. Wisconsin,
520 U.S. 385 (1997). . . . . . . . . . . . . . . . . . . . . . . 24
State v. Boyea,
765 A.2d 862 (Vt. 2000), cert. denied,
533 U.S. 917 (2001). . . . . . . . . . . . . . . . . 18, 20, 22
State v. Contreras,
79 P.3d 1111 (N.M. 2003) . . . . . . . . . . . . . . . 18, 33
State v. Crawford,
67 P.3d 115 (Kan. 2003) . . . . . . . . . . . . . 17, 31, 32
State v. Golotta,
837 A.2d 359 (N.J. 2003) . . . . . . . . . . . . . . . . . . 18

vii
State v. Hanning,
296 S.W.3d 44 (Tenn. 2009) . . . . . . . . . . . . . 18, 20
State v. Kooima,
833 N.W.2d 202 (Iowa 2013), cert. denied,
572 U.S. 1087 (2014). . . . . . . . . . . . . . . . 19, 20, 31
State v. Prendergast,
83 P.3d 714 (Haw. 2004). . . . . . . . . . . . . . . . . . . 17
State v. Rodriguez,
852 N.W.2d 705 (Neb. 2014). . . . . . . . . . . . . 19, 20
State v. Rutzinski,
623 N.W.2d 516 (Wis. 2001) . . . . . . . . . . . . . . . . 18
State v. Stanage,
893 N.W.2d 522 (S.D. 2017) . . . . 19, 21, 22, 26, 31
State v. Tucker,
878 P.2d 855 (Kan. App. 1994) . . . . . . . . . . . . . . 21
State v. Walshire,
634 N.W.2d 625 (Iowa 2001) . . . . . . . . . . . . 17, 20
State v. Z.U.E.,
352 P.3d 796 (Wash. 2015) (en banc) . . . . . . . . . 23
Terry v. Ohio,
392 U.S. 1 (1968). . . . . . . . . . . . . . . . . . . . . passim
United States v. Cortez,
449 U.S. 411 (1981). . . . . . . . . . . . . . . . . . . . . 9, 10
United States v. Hauk,
412 F.3d 1179 (10th Cir. 2005). . . . . . . . . . . . . . 32

viii
United States v. Knotts,
460 U.S. 276 (1983). . . . . . . . . . . . . . . . . . . . . . . 29
United States v. Sharpe,
470 U.S. 675 (1985). . . . . . . . . . . . . . . . . . . . . . . 26
United States v. Sokolow,
490 U.S. 1 (1989). . . . . . . . . . . . . . . . . . . . . . . . . 13
United States v. Wheat,
278 F.3d 722 (8th Cir. 2001), cert. denied,
537 U.S. 852 (2002). . . . . . . . . . . . . . . . . . . . . . . 16
Virginia v. Harris,
130 S.Ct. 10 (2009) . . . . . . . . . . . . . . . . . . . passim
CONSTITUTION AND STATUTES
U.S. Const. amend. IV . . . . . . . . . . . . . . . . . . . . . . . . 2
U.S. Const. amend. XIV . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. § 1257(a). . . . . . . . . . . . . . . . . . . . . . . . . . . 1
OTHER AUTHORITIES
Anthony G. Amsterdam, Perspectives on the Fourth
Amendment, 58 Minn. L. Rev. 349 (1974) . . . . . 28
Brief of Respondent, Navarette v. California, 572
U.S. 393 (2014) (No. 12-9490), 2013 WL 667370. . 14
Jordan E. DeVylder et al., Association of Exposure
to Police Violence With Prevalence of Mental
Health Symptoms Among Urban Residents in the
United States, JAMA Network Open (Nov. 21,
2018), available at https://jamanetwork.com/jour
nals/jamanetworkopen/fullarticle/2715611 . . . . 30

ix
Amanda Graham, et al., Race and Worry About
Police Brutality: The Hidden Injuries of Minority
Status in America, 15 Victims & Offenders 549
(2020). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30
Giulia Heyward & João Costa, Black children are 6
times more likely to be shot to death by police,
study finds, CNN (Dec. 17, 2020), available at
https://www.cnn.com/2020/12/17/us/blackchildren-police-brutality-trnd/index.html . . . . . 30
Andrew B. Kartchner, J.L.’s Time Bomb Still
Ticking: How Navarette’s Narrow Holding
Failed to Address Important Issues Regarding
Anonymous Tips, 44 U. Balt. L. Rev. 1 (2014) . . . . 15
Kit Kinports, Probable Cause and Reasonable
Suspicion: Totality Tests or Rigid Rules?, 163 U.
PA. L. Rev. Online 75 (2014) . . . . . . . . . . . . . . . 24
Petition for Writ of Certiorari, Commonwealth of
Virginia v. Moses Harris, No. 08-1385, 2009 WL
1304726 (U.S.). . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Tim Prudente, 2019 closes with 348 homicides in
Baltimore, second-deadliest year on record,
Baltimore Sun (January 1, 2020), available at
https://www.baltimoresun.com/news/crime/bsmd-ci-cr-2019-homicide-final-count-20200101jnauuumukbdh3edsyypspsm 3he-story.html . . . . . 28
The Honorable Charles Burns & Michael
Conte, Terry Stops, Anonymous Tips, and
Driving Under the Influence: A Study of Illinois
Law, 45 Loy. U. Chi. L.J. 1143 (2014). . . . . . . 13, 15

x
Transcript of Oral Argument, Navarette v.
California, 572 U.S. 393 (2014) (No. 12-9490) . . . 14

1
PETITION FOR WRIT OF CERTIORARI
Petitioner, Benjamin Caleb Trott, by counsel,
Jeffrey M. Ross, Assistant Public Defender, Maryland
Office of the Public Defender, requests that this Court
issue a writ of certiorari to review the judgment of the
Court of Appeals of Maryland.
OPINIONS BELOW
The reported opinion of the Court of Appeals of
Maryland, Trott v. State, 473 Md. 245, 249 A.3d 833
(2021), is reproduced in Appendix A. Pet. App. 1a-29a.
The order of the Court of Appeals granting the
certification pursuant to Maryland Rule 8-304 from the
Court of Special Appeals of Maryland to the Court of
Appeals and issuing the writ of certiorari to the Court
of Special Appeals is reproduced in Appendix B. Pet.
App. 30a-33a. The certification from the Court of
Special Appeals to the Court of Appeals pursuant to
Maryland Rule 8-304 is reproduced in Appendix C. Pet.
App. 34a-40a. The ruling of the Circuit Court for Anne
Arundel County, orally given and transcribed, is
reproduced in Appendix D. Pet. App. 41a.
JURISDICTION
The Court of Appeals of Maryland issued its opinion
affirming the judgment of the Circuit Court for Anne
Arundel County on April 23, 2021. This petition is filed
within 150 days of that opinion, as required by Rule 13
of The Rules of the Supreme Court, as modified by the
Court’s orders of March 19, 2020, and July 19, 2021,
relating to COVID-19. The jurisdiction of this Court is
invoked under 28 U.S.C. § 1257(a).

2
CONSTITUTIONAL PROVISIONS INVOLVED
CONSTITUTION
Amendment IV:

OF

THE

UNITED

STATES,

The right of the people to be secure in their
persons, houses, papers, and effects, against
unreasonable searches and seizures, shall not be
violated, and no Warrants shall issue, but upon
probable cause, supported by Oath or
affirmation, and particularly describing the
place to be searched, and the persons or things
to be seized.
CONSTITUTION OF
Amendment XIV, § 1:

THE

UNITED

STATES,

All persons born or naturalized in the United
States, and subject to the jurisdiction thereof,
are citizens of the United States and of the State
wherein they reside. No State shall make or
enforce any law which shall abridge the
privileges or immunities of citizens of the United
States; nor shall any State deprive any person of
life, liberty, or property, without due process of
law; nor deny to any person within its
jurisdiction the equal protection of the laws.
STATEMENT OF THE CASE
On December 4, 2015, around 11:30 p.m., Corporal
Michael Cooper, Anne Arundel County Police
Department, was on duty when he was dispatched to a
call for an “intoxicated driver” at a specific location
identified by street address. Pet. App. 3a, 4a-5a. The
tip provided the color of the vehicle and the license

3
plate number. Pet. App. 4a-5a. Corporal Cooper arrived
at the location within two to eight minutes and
observed the vehicle described by dispatch parked in
front of a liquor store. Pet. App. 5a. The engine was
running. Corporal Cooper pulled into the parking lot
and parked his cruiser approximately ten to fifteen feet
behind the vehicle and activated his emergency lights.
Pet. App. 5a.
Corporal Cooper and another officer with him
approached the vehicle, with Corporal Cooper
approaching the driver’s side, where Mr. Trott was
seated. Pet. App. 5a. Corporal Cooper knocked on the
driver’s side window and asked Mr. Trott to roll down
the window. Mr. Trott did not immediately roll down
the window, appearing to be unfamiliar with the
window controls. Pet. App. 5a. Corporal Cooper asked
Mr. Trott for his license and registration, and Mr. Trott
advised that his license was suspended and that his
driver’s license was revoked. Pet. App. 5a.
During the conversation with Mr. Trott, Corporal
Cooper detected a “strong odor” of alcohol on his
breath. Pet. App. 5a. Mr. Trott told Corporal Cooper
that he had consumed two beers and a shot and that he
was more sober than his girlfriend, who was also in the
vehicle. Pet. App. 5a. Corporal Cooper asked Mr. Trott
to step out of the vehicle and arrested him after he
performed unsuccessfully on a field sobriety test. Pet.
App. 5a.
Mr. Trott was charged in the District Court of
Maryland for Anne Arundel County with various
driving offenses, including driving while impaired by
alcohol. Mr. Trott prayed a jury trial, and his case was

4
transferred to the Circuit Court for Anne Arundel
County. Prior to trial, Mr. Trott moved to suppress
evidence obtained as a result of the stop. He argued
that under Terry v. Ohio, 392 U.S. 1 (1968), Navarette
v. California, 572 U.S. 393 (2014), and Maryland case
law applying this Court’s Fourth Amendment
precedent, Corporal Cooper did not have reasonable
suspicion when he seized him. The circuit court orally
delivered its ruling:
All right. Well, viewing what you gentlemen
have submitted in writing and your arguments
along with the testimony of Officer Cooper, I
find that the circumstances were sufficient to
support the stop conducted by Officer Cooper
and therefore the Motion is denied.
Pet. App. 41a.
Following the denial of his motion to suppress, Mr.
Trott entered a plea of not guilty on an agreed
statement of facts to one count of driving while
impaired by alcohol. The court found Mr. Trott guilty
and sentenced him to a three-year term of
incarceration, with three years suspended, and a threeyear term of supervised probation.
Mr. Trott noted an appeal to the Maryland Court of
Special Appeals. Benjamin Caleb Trott v. State of
Maryland, No. 1853, September Term, 2019. Following
the submission of briefs, the Court of Special Appeals
certified the following question to the Maryland Court
of Appeals:
Did the circuit court err in finding that a police
officer had reasonable suspicion to engage in an

5
encounter with appellant based upon the police
dispatcher’s information conveyed to him over
his police radio, following a 911 call, stating
“intoxicated driver at 5823 Deale Churchton
Road,” and indicating further facts limited to the
color of vehicle, Maryland tag number, Maryland
registration number, and that the vehicle was in
a parking lot?
Pet. App. 35a. The Court of Appeals granted the
certification and issued the writ of certiorari to the
Court of Special Appeals to decide the following
question: “Did the circuit court err in denying
Petitioner’s motion to suppress?” Pet. App. 31a.
The Court of Appeals held that police had
reasonable suspicion to seize Mr. Trott.1 The Court of
Appeals characterized Mr. Trott’s case as a “close case”
and that “on its own, such a ‘bare bones,’ conclusory
allegation would not suffice to support a stop.” Pet.
App. 22a. Nonetheless, the Court of Appeals concluded
“that the anonymous call was reliable” and that
Corporal Cooper had a reasonable basis for suspecting
criminal activity when he approached Mr. Trott’s
vehicle. Pet. App. 24a.
The Court of Appeals considered additional factors:
“Specifically, in determining the validity of the stop, it
is not unreasonable to consider both the level of the

1

The State conceded that Mr. Trott was seized “where the officers
parked the cruiser ten to fifteen feet behind Mr. Trott’s parked car
and activated the emergency lights” and when Corporal Cooper
then “approached his car and asked him to roll down his window.”
Pet. App. 9a n.6.

6
intrusiveness occasioned by the stop, as well as the risk
of harm resulting from a failure to detain the driver.”
Pet. App. 25a. The Court of Appeals viewed its
consideration of these factors to be consistent with
Navarette:
[W]e do not read Navarette as eliminating a
court’s ability to consider the nature of the crime
(and attendant imminent danger to the public),
as well as the level of intrusion (such as
knocking on the window of a stopped but
running vehicle parked in a liquor store parking
lot), when undertaking a reasonable suspicion
analysis.
Pet. App. 26a n.9. The Court of Appeals also found
support for its balancing approach in Chief Justice
Roberts’s dissent from the denial of a petition for writ
of certiorari in Virginia v. Harris, 130 S.Ct. 10 (2009).
Pet. App. 28a.
Ultimately, the Court of Appeals held that the stop
satisfied the Fourth Amendment: “Balancing the
public’s interest in safety against the minimal
intrusion occasioned by the brief investigatory stop
here, and considering the totality of the facts presented
to Officer Cooper in this case, we conclude that the
scales of justice tilt in favor of the stop.” Pet. App. 28a.2

2

Having held that the stop was supported by reasonable suspicion,
the Court of Appeals declined to address the State’s alternative
argument that the stop was justified under the community
caretaking exception. Pet. App. 21a. n.7.

7
REASONS FOR GRANTING THE WRIT
When courts balance the risk of harm posed by
drunk driving against the intrusiveness of a vehicle
stop, factors common to all possible drunk driving
cases, the balancing invariably weighs in favor of
upholding the stop. The obvious point to such
balancing is to support a finding of reasonable
suspicion where the “particular circumstances” of the
case alone might not justify the stop. Terry, 392 U.S. at
21.
This balancing approach conflicts at once with
Terry’s particularity requirement and this Court’s
“established reliability analysis” regarding tips. Florida
v. J.L., 529 U.S. 266, 272 (2000). In J.L., this Court
declined to recognize an “automatic firearm exception
to our established reliability analysis” but left open the
possibility that some type of danger, e.g., “a report of a
person carrying a bomb,” might “justify a search even
without a showing of reliability.” Id. at 272-73. In
Navarette, this Court was asked to recognize drunk
driving as the exception to J.L. and responded with
conspicuous silence.
In upholding the stop in Mr. Trott’s case, the Court
of Appeals capitalized on Navarette’s silence,
concluding that Navarette did not preclude the
balancing approach that the Court of Appeals relied
upon as compensation for a record clearly deficient in
indicia of reliability and, hence, reasonable suspicion.
The predictable result is ominous: anyone coming from
or going to a liquor store, bar, or other venue where
alcohol is purchased or consumed, e.g., a concert or a
baseball game or a wedding reception, is subject to

8
being seized by police on the basis of an anonymous
and conclusory tip of drunk driving. Every such driver
is now J.L.’s bomb-carrier; the commonplace is
extreme. Making matters worse, the Court of Appeals
has not provided a basis for limiting its balancing
approach to drunk driving cases.
Before Navarette, there was a clear conflict among
courts over whether the kind of balancing approach
conducted by the Court of Appeals is part of the
reasonable suspicion analysis in possible drunk driving
cases, i.e., cases involving tips of intoxicated, reckless,
or erratic driving. Now that conflict is even more
pronounced. This Court should use this case to resolve
that conflict and to hold that the Fourth Amendment
does not permit courts to balance the risk of harm
posed by drunk driving against the intrusiveness of the
stop when determining whether a stop based on an
anonymous tip is supported by reasonable suspicion.
Rather, courts must continue to adhere to Terry’s
particularized suspicion requirement and this Court’s
established reliability analysis, and when this
reasonable suspicion standard is not met, as in Mr.
Trott’s case, the analysis is complete.

9
I.

COURTS ARE DIVIDED OVER WHETHER
BALANCING THE RISK OF HARM POSED
BY DRUNK DRIVING AGAINST THE
INTRUSIVENESS OF THE STOP IS PART
OF THE REASONABLE SUSPICION
ANALYSIS.
A. Background

In Terry, this Court was called upon to determine
whether a category of police action, “an entire rubric of
police conduct,” i.e., a stop and frisk based on a
standard of proof less than probable cause, was
constitutional. 392 U.S. at 20. In doing so, as it often
does in deciding to create a new exception to the
warrant requirement, this Court “‘balanc[ed] the need
to search (or seize) against the invasion which the
search (or seizure) entails.’” Id. at 21 (quoting Camara
v. Municipal Court, 387 U.S. 523, 536-37 (1967)).
Having determined that the balancing analysis
supported the constitutionality of the “entire rubric” of
the stop and frisk, this Court then articulated the
standard for analyzing the constitutionality of a
“particular intrusion” within this rubric: “in justifying
the particular intrusion the police officer must be able
to point to specific and articulable facts” so that a judge
can “evaluate the reasonableness of a particular search
or seizure in light of the particular circumstances.” Id.
“This demand for specificity in the information upon
which police action is predicated is the central teaching
of this Court’s Fourth Amendment jurisprudence.” Id.
at 21 n.18. See United States v. Cortez, 449 U.S. 411,
418 (1981) (analyzing the “particularized suspicion”
requirement in terms of Terry’s “‘demand for

10
specificity’” and this “‘central teaching’”). In short,
while a balancing of governmental interest and
intrusiveness gave rise to the reasonable suspicion
rubric, such balancing was not made part of the
reasonable suspicion analysis in individual cases.
When police rely on a tip to justify a Terry stop, the
same particularized suspicion requirement and
demand for specificity control. Navarette, 572 U.S. at
396 (stating that a stop based on an anonymous tip is
permitted “when a law enforcement officer has
‘a particularized and objective basis for suspecting the
particular person stopped of criminal activity’” (quoting
Cortez, 449 U.S. at 417-18, and citing Terry, 392 U.S. at
21-22)). Further, when police rely on a tip, the “indicia
of reliability [is] critical.” J.L., 529 U.S. at 273.
In J.L., this Court held that an anonymous tip
regarding the possession of a firearm did not give rise
to reasonable suspicion under this Court’s “established
reliability analysis” to stop and frisk the subject of the
tip. Id. at 272. This Court declined to recognize an
“automatic firearm exception” to its reliability analysis,
while leaving open the possibility that some kind of
allegation of danger could warrant dispensing with or
discounting its reliability requirement:
The facts of this case do not require us to
speculate about the circumstances under which
the danger alleged in an anonymous tip might
be so great as to justify a search even without a
showing of reliability. We do not say, for
example, that a report of a person carrying a
bomb need bear the indicia of reliability we
demand for a report of a person carrying a

11
firearm before the police can constitutionally
conduct a frisk.
Id. at 273-74.
Drunk driving, in the eyes of some, is an obvious
candidate for turning J.L.’s dicta into law. The question
presented in the petition in Harris addressed whether
an anonymous tip of drunk driving had to be
corroborated by police observation of suspicious
behavior. The Commonwealth of Virginia argued that
such corroboration was unnecessary, that J.L. was
distinguishable, and that the risk of harm posed by
drunk driving and the minimal intrusion of a vehicle
stop justified an exception to the Court’s established
reliability analysis. Petition for Writ of Certiorari,
Commonwealth of Virginia v. Moses Harris, No.
08-1385, 2009 WL 1304726 (U.S.), at *22-26. This
Court denied the petition. In dissent, Chief Justice
Roberts opined that “it is not clear that J.L. applies to
anonymous tips reporting drunk or erratic driving” and
that “J.L. itself suggested that the Fourth Amendment
analysis might be different in other situations.” 130
S.Ct. at 11 (Roberts, C.J., dissenting).
In Navarette, a dispatcher relayed the following tip
from an anonymous 911 caller: “‘Showing southbound
Highway 1 at mile marker 88, Silver Ford 150 pickup.
Plate of 8–David–94925. Ran the reporting party off
the roadway and was last seen approximately five
[minutes] ago.’” 572 U.S. at 395. An officer responded
and eventually stopped the truck, which led to the
discovery of marijuana. Id. at 395-96.

12
In holding that the stop was supported by
reasonable suspicion, this Court began by rejecting the
argument “that reasonable cause for a[n investigative
stop] can only be based on the officer’s personal
observation, rather than on information supplied by
another person.” Id. at 397 (alteration in original)
(quoting Adams v. Williams, 407 U.S. 143, 147 (1972)).
With respect to the reliability of the tip, this Court
relied on the fact that the caller had “eyewitness
knowledge” of a “startling event,” which the caller
reported contemporaneously with the observation and
under the “stress of excitement.” Id. at 399-400. This
Court also reasoned that the use of a 911 call system
added to the tip’s reliability because 911 call systems
generally are equipped with identifying features. Id. at
400-01.
Summarizing, this Court emphasized that “the 911
caller in this case reported more than a minor traffic
infraction and more than a conclusory allegation of
drunk or reckless driving” and instead “alleged a
specific and dangerous result of the driver’s conduct”
indicative of drunk driving. Id. at 403. Nonetheless,
this Court acknowledged, “[T]his is a ‘close case.’” Id. at
404 (quoting Alabama v. White, 496 U.S. 325, 332
(1990)).
Absent from the analysis in Navarette is any
discussion of the risk of harm posed by drunk driving
and the minimal intrusiveness of the stop as
supporting the finding of reasonable suspicion. The
single reference to the risk of harm came after this
Court had determined that the stop was supported by
reasonable suspicion. Reaffirming the rule that

13
reasonable suspicion “‘does not turn on the availability
of less intrusive investigatory techniques,’” id. at 404
(quoting United States v. Sokolow, 490 U.S. 1, 11
(1989)), this Court added that departure from that rule
would be particularly inappropriate “because allowing
a drunk driver a second chance for dangerous conduct
could have disastrous consequences.” Id. See The
Honorable Charles Burns & Michael Conte, Terry
Stops, Anonymous Tips, and Driving Under the
Influence: A Study of Illinois Law, 45 Loy. U. Chi. L.J.
1143, 1176 (2014) (noting that while Navarette “stated
in dicta, that ‘allowing a drunk driver a second chance
for dangerous conduct could have disastrous
consequences,’ this proposition formed no part of its
analysis of whether the officer had reasonable
suspicion in the first place”) (footnote omitted).
Also absent from the analysis in Navarette is any
discussion of J.L.’s dicta regarding the possibility of
dispensing with or relaxing the established reliability
analysis. In its brief in Navarette, the respondent asked
this Court to do for drunk driving cases what it would
not do for firearm cases:
Although J.L. rejected the sufficiency of the tip
in the context of routine crime prevention, it
recognized that a heightened governmental
interest, arising from an imminent threat to
public safety, is an important factor in
evaluating the totality of circumstances, which,
in turn, affects the overall balancing of
reasonableness. Thus, the stronger the
governmental interest, the less demanding a

14
showing of reliability is required for an
anonymous tip to provide reasonable suspicion.
Brief of Respondent, Navarette v. California, 572 U.S.
393 (2014) (No. 12-9490), 2013 WL 667370, at *18-19.
At oral argument, the respondent began by putting
the risk of harm and the minimal intrusion of the stop
front and center:
An officer can reasonably rely on such a tip
because the importance of the governmental
interest in protecting the public from the
ongoing and immediate threat of drunk driving
outweighs the minimal intrusion of a traffic
stop.
Transcript of Oral Argument at 28, Navarette v.
California, 572 U.S. 393 (2014) (No. 12-9490).
Questioning followed, testing this argument against
J.L. For example, Justice Ginsburg asked: “So what’s
the difference? The – the argument on the drunk
driving is very, very dangerous, but so is having a gun
in one’s pocket?”; and Justice Scalia asked, “You don’t
think that a teenager standing on a street corner with
a couple of other teenagers with a gun in his belt
represents a threat to public safety?” Id. at 41, 48-49.
Answers to this line of questioning are not part of
Navarette’s analysis.
In a “close case,” one might have expected this
Court to rely on the risk of harm posed by drunk
driving and the minimal intrusion of the stop as
support for the conclusion that there was reasonable
suspicion. It did not. The explicit manner in which
these factors were argued and the conspicuous manner

15
in which this Court declined to address them was a
mixed signal that did not go unnoticed. As one
commentator put it, “Shockingly, the Court
in Navarette avoided this discussion altogether.”
Andrew B. Kartchner, J.L.’s Time Bomb Still Ticking:
How Navarette’s Narrow Holding Failed to Address
Important Issues Regarding Anonymous Tips, 44 U.
Balt. L. Rev. 1, 7 (2014).
Another commentator, a trial judge, noted that this
Court did not “expressly adopt the reasoning of the
respondent in its briefing and at argument.” Burns &
Conte, supra, 45 Loy. U. Chi. L.J. at 1176. Foreseeing
a case like Mr. Trott’s, the same commentator added:
However, the Court did not expressly reject or
repudiate the respondent’s proffered reasoning
based on the danger to public safety, and it
remains unclear whether, in a different case in
which the tip did not have all the indicia
of reliability or specificity that the tip in
Navarette had, it might comport with the Fourth
Amendment to reason that a Terry stop was
nevertheless justified based in part on the
suspected drunk driver’s potential danger to
public safety.
Id. Mr. Trott’s case is that “different case in which the
tip did not have all the indicia of reliability or
specificity that the tip in Navarette had,” and the
question left open in Navarette is now squarely before
this Court.

16
B. The Conflict
In dissenting from the denial of certiorari in Harris,
Chief Justice Roberts observed that the “conflict is
clear and the stakes are high” with respect to the split
among courts over the question of whether police must
“confirm an anonymous tip of drunk or erratic driving”
through independent observation of suspicious
behavior. 130 S.Ct. at 12 (Roberts, C.J., dissenting).
While Navarette settled the question as to the need for
police observation of suspicious activity, it did so
without addressing the underlying conflict over the role
in the reasonable suspicion analysis of balancing the
risk of harm posed by drunk driving against the
intrusiveness of the stop. The underlying and
perduring conflict is about the propriety of this
balancing approach. This conflict was clear when this
Court denied certiorari in Harris, and it is even clearer
now.
Courts of last resort in at least eleven states,
California, Delaware, Hawaii, Iowa, Kansas, Maryland,
New Jersey, New Mexico, Tennessee, Vermont, and
Wisconsin, and the Eighth Circuit Court of Appeals
have upheld stops in possible drunk driving cases
based in part on the risk of harm posed by drunk
driving and the lessened or minimal intrusion of a
vehicle stop:
• United States v. Wheat, 278 F.3d 722, 736, 737
(8th Cir. 2001), cert. denied, 537 U.S. 852 (2002)
(distinguishing J.L. based on the “imminent
threat to public safety” posed by a possible
drunk driver and the assessment that vehicle
“stops are considerably less invasive, both

17
physically and psychologically, than the frisk on
a public corner that was at issue in J.L.”);
• People v. Wells, 136 P.3d 810, 815 (Cal. 2006),
cert. denied, 550 U.S. 937 (2007) (approving
Wheat and recognizing “the relatively greater
urgency presented by drunken or erratic
highway drivers, and the minimal intrusion
involved in a simple vehicle stop”);
• Bloomingdale v. State, 842 A.2d 1212, 1221 (Del.
2004) (“[W]hen deciding whether an anonymous
tip of erratic driving provided reasonable
suspicion to stop a vehicle, courts
should balance the government’s interest in
responding immediately to reports of unsafe
driving against the comparatively modest
intrusion on individual liberty that a traffic stop
entails.”);
• State v. Prendergast, 83 P.3d 714, 722-23 (Haw.
2004) (distinguishing J.L. based on the
“imminence of harm” and the less intrusive
nature of a vehicle stop);
• State v. Walshire, 634 N.W.2d 625, 630 (Iowa
2001) (distinguishing J.L. because a “serious
public hazard allegedly existed that, in the view
of the Supreme Court, might call for a relaxed
threshold of reliability” and “the intrusion on
privacy interests is slight, less than in a patdown situation”);
• State v. Crawford, 67 P.3d 115, 118 (Kan. 2003)
(reiterating that under Kansas precedent “‘[t]his
minimal intrusion is balanced against the

18
substantial harm caused
drivers’”) (citation omitted);

by

intoxicated

• State v. Golotta, 837 A.2d 359, 366, 372 (N.J.
2003) (allowing for a reduction in the “degree of
corroboration necessary to uphold a stop of a
motorist suspected of erratic driving” because of
the lesser intrusion of a vehicle stop and because
“an intoxicated or erratic driver poses a
significant risk of death or injury to himself and
to the public”);
• State v. Contreras, 79 P.3d 1111, 1118 (N.M.
2003) (reasoning that “New Mexico’s grave
concern about the dangers of drunk drivers, and
the minimal intrusion of a brief investigatory
stop tip the balance in favor of the stop”);
• State v. Hanning, 296 S.W.3d 44, 52 (Tenn.
2009) (distinguishing J.L. based on the
“imminent danger of harm to the public” and the
lesser “level of intrusion”);
• State v. Boyea, 765 A.2d 862, 868 (Vt. 2000), cert.
denied, 533 U.S. 917 (2001) (“Balancing the
public’s interest in safety against the relatively
minimal intrusion posed by a brief investigative
detention, the scale of justice in this case must
favor the stop[.]”) (internal citation omitted);
• State v. Rutzinski, 623 N.W.2d 516, 527 (Wis.
2001) (distinguishing J.L. based on the
“potential imminent danger to public safety” and
the “minimal intrusion” of the stop).

19
Courts of last resort in at least eight states, Iowa,
Kentucky, Michigan, Nebraska, North Dakota, South
Dakota, Virginia, and Wyoming, have held that stops
based on tips related to possible drunk driving violated
the Fourth Amendment and, in so holding, did not
incorporate a balancing approach. See State v. Kooima,
833 N.W.2d 202 (Iowa 2013), cert. denied, 572 U.S.
1087 (2014)3; Collins v. Com., 142 S.W.3d 113 (Ky.
2004); People v. Pagano, ___ N.W.2d ___, 2021 WL
1570350 (Mich. Apr. 22, 2021); State v. Rodriguez, 852
N.W.2d 705 (Neb. 2014); Anderson v. Dir., N. Dakota
Dep’t of Transp., 696 N.W.2d 918 (N.D. 2005); State v.
Stanage, 893 N.W.2d 522 (S.D. 2017); Harris v.
Commonwealth, 668 S.E.2d 141 (Va. 2008), cert.
denied, 558 U.S. 978 (2009); and McChesney v. State,
988 P.2d 1071 (Wyo. 1999).
Dissenting and concurring opinions from both sides
of the conflict illustrate the fixed nature of the dispute:
it almost always returns to J.L. and, now, whether the
Court in Navarette allowed for treating drunk driving
as the exception to J.L. Among the cases endorsing a
balancing approach, the dissent in Wells argued:
The majority misreads J.L. That the high court
in J.L. left open the possibility that a
catastrophic threat might justify a somewhat
relaxed standard of reasonable cause to detain
does not suggest we are now to rank all crimes
along a sliding scale, permitting investigatory

3

The fact that Iowa shows up on both sides of the conflict reflects
the need for clarification from this Court.

20
detentions on lesser showings when the
detainees are suspected of more serious crimes.
136 P.3d at 818 (Werdegar, J., dissenting). Likewise, in
Boyea, the dissent argued: “The majority’s rule is that
if an automobile-operation crime is alleged, then the
crime is so dangerous that police need not have reliable
information. This ‘automobile’ exception has no basis in
Supreme Court precedent.” 765 A.2d at 880 (Johnson,
J., dissenting). The concurring opinion in Hanning
made a similar point: “Because the U.S. Supreme Court
rejected a generalized ‘firearm exception,’ I am hesitant
to join the majority to the extent that its opinion could
be read as adopting a generalized ‘reckless driving’
exception.” 296 S.W.3d at 57 (Wade, J., concurring).
Among the cases in which the majority did not
incorporate a balancing approach, the dissent,
predictably, argued that it should have. See, e.g.,
Kooima, 833 N.W.2d at 212 (Mansfield, J., dissenting)
(arguing that J.L. is distinguishable because “‘in the
present case, a serious public hazard [drunk driving]
allegedly existed that, in the view of the Supreme
Court, might call for a relaxed threshold of reliability;
and…the intrusion on privacy interests [with a traffic
stop] is slight, less than in a pat-down situation’”
(alterations in original) (quoting Walshire, 634 N.W.2d
at 630)); Collins, 142 S.W.3d at 118 (Graves, J.,
dissenting) (emphasizing the “state’s interest in
preventing drunk driving, but also the minimal
invasiveness of an automobile stop”); Rodriguez, 852
N.W.2d at 718 (Heavican, C.J., dissenting) (arguing
that there was reasonable suspicion, in part, because
“the failure to follow up on that report…defies reason

21
and ‘could have disastrous consequences’” (quoting
Navarette, 572 U.S. at 404))); Harris, 668 S.E.2d at 703
(Kinser, J., dissenting) (criticizing the majority for
ignoring the Commonwealth’s argument “that
anonymous tips about incidents of drunk driving
require less corroboration than tips concerning matters
presenting less imminent danger to the public”);
McChesney, 988 P.2d at 1079 (Thomas, J., dissenting)
(“‘We must apply that balancing test in the instant
case. A motor vehicle in the hands of a drunken driver
is an instrument of death … An investigatory or safety
stop of a suspected drunken driver is a minimal
intrusion upon that driver’s freedom of movement and
privacy.’” (quoting State v. Tucker, 878 P.2d 855, 861
(Kan. App. 1994))).
Along similar lines, one of the concurring opinions
in Pagano, in explaining why the case was at least a
“close case,” pointed to the same risk-of-harm and
intrusiveness factors and quoted Chief Justice
Roberts’s dissent in Harris. 2021 WL 1570350 at *1213 (Zahra, J., concurring). Notably, the Michigan Court
of Appeals upheld the stop based in part on these same
factors. People v. Pagano, 2019 WL 2273357, at *3
(Mich. Ct. App. May 28, 2019), rev’d, 2021 WL 1570350
(Mich. Apr. 22, 2021) (“Less information is required to
justify a traffic stop when the informant’s tip relates to
potentially dangerous driving because the interest in
ensuring public safety on a roadway is high compared
with the minimally invasive nature of a traffic stop.”).
Lastly, in Stanage, the Supreme Court of South
Dakota held that the stop in question was
unconstitutional because “[u]nder Navarette, a

22
conclusory allegation of drunk or reckless driving is
insufficient to support a reasonable suspicion of
criminal activity.” 893 N.W.2d at 531.4 Reading
Navarette as did the Maryland Court of Appeals, the
dissent argued:
When balancing the risk of harm to the public in
the present case with the minimal intrusion
necessitated by Deputy Kriese’s investigatory
stop, the “scale of justice ... must favor the stop;
a reasonable officer could not have pursued any
other prudent course.” State v. Boyea, 171 Vt.
401, 765 A.2d 862, 868 (2000).
And Navarette—although postdating these
cases—does not stand for a contrary principle.
Id. at 536 (Kern, J., dissenting). The majority
responded by rejecting the notion that Navarette allows
for such balancing: “[T]he Supreme Court did not rely
on any sort of public-safety exception to the Fourth
Amendment in its totality-of-the-circumstances
analysis in Navarette. The dissent does not cite to any

4

The identities of the tipsters in Stanage were discoverable,
prompting the court to treat them as non-anonymous. 893 N.W.2d
at 526. Nonetheless, the court held that the tipsters’ conclusory
allegation did not give rise to reasonable suspicion. The balancing
approach is typically injected into cases where reliability is
weakest, i.e., in anonymous tip cases. Stanage illustrates how,
even in some cases involving non-anonymous tips, the balancing
approach comes into play. See also Anderson, 696 N.W.2d at 923
(tipster was not “purely anonymous”).

23
Supreme Court decisions on this point, let alone one
decided after Navarette.” Id. at 530 n.7.5
II.

THIS CONFLICT OVER THE SCOPE OF
THE REASONABLE SUSPICION
ANALYSIS IN POSSIBLE DRUNK
DRIVING CASES SHOULD BE RESOLVED
NOW.

This case is important for the same two reasons
that Navarette was important. As Justice Scalia framed
the matter: “Drunken driving is a serious matter, but
so is the loss of our freedom to come and go as we
please without police interference.” Navarette, 572 U.S.
at 414 (Scalia, J., dissenting). Yet there is much more
at stake in Mr. Trott’s case with respect to the loss of
freedom.
While Navarette was a “close case” under this
Court’s established reliability analysis, Mr. Trott’s case
is not. To uphold the stop in this case, it is necessary to
abandon this Court’s established reliability analysis by
adoption of a balancing approach. There is no

5

Further demonstrating the need for clarification following
Navarette, the Supreme Court of Washington, in a gun case,
offered a contrary reading of Navarette:
[W]hen a tip involves a serious crime or potential danger,
less reliability may be required for a stop than is required
in other circumstances. We read the United States
Supreme Court's decision in Navarette–that a single
anonymous 911 call may justify pulling over a reported
drunk driver–as largely turning on this factor.
State v. Z.U.E., 352 P.3d 796, 803 (Wash. 2015) (en banc) (internal
citations omitted)

24
precedent for doing so. See Kit Kinports, Probable
Cause and Reasonable Suspicion: Totality Tests or
Rigid Rules?, 163 U. PA. L. Rev. Online 75, 83 (2014)
(“Thus, there is no precedent in the Court’s Fourth
Amendment jurisprudence for applying a balancing
approach or considering the severity of the crime when
assessing reasonable suspicion or probable cause.”).
Nonetheless, with profound implications beyond
possible drunk driving cases, Maryland has taken this
step. In the words of Chief Justice Roberts, the Fourth
Amendment analysis is now structurally “different” in
Maryland (joining several states) than it is in other
states, with the potential for it to be different in “other
situations” besides drunk driving. 130 S.Ct. at 11
(Roberts, C.J., dissenting). In J.L., this Court refused
to allow the danger associated with firearms to
compensate for a deficient showing of reliability,
convinced that one could not “securely confine such an
exception to allegations involving firearms,” 529 U.S. at
272, and cognizant of the fact that “‘the reasons for
creating an exception in one category [of Fourth
Amendment cases] can, relatively easily, be applied to
others,’ thus allowing the exception to swallow the
rule.” Id. at 273 (alteration in original) (quoting
Richards v. Wisconsin, 520 U.S. 385, 393-394 (1997)).
The rule of Terry’s particularity requirement, as
embodied in this Court’s established reliability
analysis, is more at risk than ever of being swallowed
by an indeterminate balancing exception.
The fruit of J.L.’s dicta and Navarette’s silence is a
legal landscape in which the protections of the Fourth
Amendment vary based on state lines. More delay in

25
resolving the conflict will only lead to more inconsistent
results, without any gain in this Court’s ability to
answer the question about the propriety of
incorporating a balancing approach like the one used in
Mr. Trott’s case into the reasonable suspicion analysis.
Finally, with Mr. Trott’s case, this Court has what
it needs to answer the question that has been left open
for too long. Indeed, Maryland’s appellate courts as
well as the State treated Mr. Trott’s case as a proper
vehicle for exploring the parameters of the Fourth
Amendment in drunk driving cases: the Court of
Appeals “granted certiorari to consider the parameters
of the Fourth Amendment in the context of a 911 call
reporting drunk driving,” Pet. App. 3a.4a; “the
intermediate appellate court observed that this case
presents ‘an important question of public policy’
balancing the interests of individual privacy protected
by the Fourth Amendment...against the inherent
danger to the public arising from driving while
intoxicated, in the context of an anonymous 911 call
reporting such alleged behavior,” Pet. App. 6a; and the
State treated Mr. Trott’s case as one that justified an
approach that “combined” “the Supreme Court’s
reasoning in Navarette” with the balancing approach at
issue. Pet. App. 12a-13a. The propriety of such a
combination is precisely what is at stake in this case.

26
III.

BALANCING THE RISK OF HARM POSED
BY DRUNK DRIVING AGAINST THE
INTRUSIVENESS OF THE STOP IS NOT A
PROPER PART OF THE REASONABLE
SUSPICION ANALYSIS.

The reasonable suspicion analysis turns on “specific
and articulable facts,” Terry, 392 U.S. at 21, not on a
second balancing of generic factors like the risk of harm
posed by the crime and the intrusiveness of a vehicle
stop. As the Supreme Court of South Dakota explained,
“Terry’s reasonable-suspicion standard already limits
the individual protection of the Fourth Amendment by
striking a balance between the need to protect the
public and the need to protect the individual.” Stanage,
893 N.W.2d at 530 n.7. See also Dunaway v. New York,
442 U.S. 200, 208 (1979) (noting that the standard of
probable cause “applied to all arrests, without the need
to ‘balance’ the interests and circumstances involved in
particular situations”).6

6

The Court of Appeals, quoting United States v. Sharpe, 470 U.S.
675, 685 (1985), stated that “‘the brevity of the invasion of the
individual’s Fourth Amendment interests is an important factor in
determining whether the seizure is so minimally intrusive as to be
justifiable on reasonable suspicion.’” Pet. App. 26a. But the Court
of Appeals took Sharpe’s language out of context: the Court in
Sharpe was simply trying to resolve the “difficult line-drawing
problems in distinguishing an investigative stop from a de
facto arrest” and to decide whether the stop there had been
“unnecessarily prolonged.” 470 U.S. at 685 (emphasis omitted). In
other words, the “brevity of the invasion” is what justified the
Court’s application of the reasonable suspicion standard in Sharpe
as opposed to the probable cause standard; that “brevity” did not
get counted again to justify application of a less demanding
reasonable suspicion standard.

27
While Terry incorporated a balancing analysis to
justify the stop and frisk exception to the warrant
requirement, a second round of balancing in individual
cases would erode Terry’s particularity requirement. If
the risk of harm posed by drunk driving is so great and
the intrusion of a vehicle stop so minimal as to justify
dispensing with the need for the tipster to provide more
than a conclusory allegation or for the police to do more
to corroborate that conclusory allegation, then there is
every reason in the next case for dispensing with any
of the other facts relied upon by the Court of Appeals.
The next case, for instance, might involve a gas station
instead of a liquor store, and there is no principled
basis for “conclud[ing] that the scales of justice tilt in
favor of the stop” in the former case but not in the
latter. Pet. App. 28a. In the words of this Court, “‘No
consideration relevant to the Fourth Amendment
suggests any point of rational limitation’ of … a
doctrine” that allows courts to use a balancing
approach in assessing reasonable suspicion. Mincey v.
Arizona, 437 U.S. 385, 393 (1978) (quoting Chimel v.
California, 395 U.S. 752, 766 (1969)).
Nor is there a basis for limiting the balancing
approach to possible drunk driving cases. Concepts like
“imminence” and “danger” admit of varying degrees.
There is no reason why a crime with purportedly more
or less “imminence” or “danger” associated with it
should not also allow for a balancing approach tailored
to that crime, raising the specter of a confusing
multitude of varying reasonable suspicion standards.
If “the seriousness of the offense under investigation”
does not create “exigent circumstances of the kind that
under the Fourth Amendment justify a warrantless

28
search,” under the exigent circumstances exception to
the warrant requirement, id. at 394, then the
seriousness of the offense does not justify the creation
of a sliding scale of reasonable suspicion standards that
is “more slide than scale.” Anthony G. Amsterdam,
Perspectives on the Fourth Amendment, 58 Minn. L.
Rev. 349, 394 (1974).
The Court of Appeals’s balancing is as flawed in its
application as it is in theory. In seeking to justify its
reliance on the risk of harm posed by drunk driving,
the Court of Appeals turned to Chief Justice Roberts’s
dissent in Harris: “While the police can observe the
subject of other types of tips ‘and step in before actual
harm occurs[,]’ a ‘wait-and-see approach’ with drunk
driving ‘may prove fatal.’” Pet. App. 28a (alteration in
original) (quoting Harris, 130 S.Ct. at 11 (Roberts, C.J.,
dissenting)). The sole piece of empirical evidence cited
by the Court of Appeals in support of this claim is the
fact that “167 people in Maryland died in alcoholimpaired driving incidents in 2019, accounting for
about one-third of the total traffic deaths in the State.”
Pet. App. 2a.
This fact is no basis for distinguishing J.L. In 2019,
in Baltimore City alone, there were 348 homicides, 303
of which were by handgun.7 If the Court of Appeals’s
evidence is what counts, then the argument that would
seem to follow is not that J.L. is distinguishable, but
7

Tim Prudente, 2019 closes with 348 homicides in Baltimore,
second-deadliest year on record, Baltimore Sun (January 1, 2020),
available at https://www.baltimoresun.com/news/crime/bs-md-ci-cr2019-homicide-final-count-20200101-jnauuumukbdh3edsyypspsm
3he-story.html.

29
that J.L. is wrong. Neither the State nor the Court of
Appeals provided evidence that a “wait-and-see
approach” has, in fact, proven fatal in drunk driving
cases but not in other types of cases, or more so in
drunk driving cases than in others. In the absence of
such objective evidence, in the words of J.L., the Court
of Appeals has failed to “securely confine such an
exception to allegations” of drunk driving. 529 U.S. at
272.
Regarding the degree of intrusiveness, the Court of
Appeals emphasized that people have a diminished
expectation of privacy in a vehicle because “[i]t travels
public thoroughfares where both its occupants and its
contents are in plain view.” Pet. App. 27a (quoting
United States v. Knotts, 460 U.S. 276, 281 (1983)). Of
course, because the allegation in Mr. Trott’s case was
devoid of any specific allegation of suspicious behavior,
it is pure speculation that something Mr. Trott did in
his car, in plain view, led to his being seized.
The Court of Appeals contrasted the “search and
seizure of one’s person in J.L.” with the “intrusion in
this case involv[ing] an officer approaching a stopped
motor vehicle and knocking on a window.” Pet. App.
27a. There is no glossing over the fact, however, that
Corporal Cooper pulled in behind Mr. Trott with his
emergency lights activated, thereby effectuating a
seizure of Mr. Trott’s person. See Arizona v. Johnson,
555 U.S. 323, 332 (2009) (reiterating that “a passenger
is seized, just as the driver is, ‘from the moment [a car
stopped by the police comes] to a halt on the side of the
road’” (quoting Brendlin v. California, 551 U.S. 249,
263 (2007))). See also Delaware v. Prouse, 440 U.S. 648,

30
657 (1979) (stating that a vehicle stop “by means of a
possibly unsettling show of authority” interferes “with
freedom of movement” and “may create substantial
anxiety”).
The Court of Appeals, moreover, ignored evidence
that a generic “minimally intrusive” stop is a fiction.
Mr. Trott argued that if balancing the risk of harm
against the level of intrusiveness is to play a role in the
reasonable suspicion analysis, then the Court of
Appeals must take into account the disproportionate
impact of policing practices on people of color.8 Doing so
would be consistent with Terry’s acknowledgment that
“the degree of community resentment aroused by
particular practices is clearly relevant to an
assessment of the quality of the intrusion upon
reasonable expectations of personal security caused by
those practices.” 392 U.S. at 17 n.14. See Amanda
Graham, et al., Race and Worry About Police Brutality:
The Hidden Injuries of Minority Status in America, 15
Victims & Offenders 549 (2020) (finding that Black and
Hispanic people experience far great fear of police
brutality than do white people). Simply ignoring such
evidence is, in fact, “unreasonable.” Pet. App. 25a.

8

As evidence of this impact, Mr. Trott cited several sources in the
Court of Appeals, including, e.g., Giulia Heyward & João Costa,
Black children are 6 times more likely to be shot to death by police,
study finds, CNN (Dec. 17, 2020), available at
https://www.cnn.com/2020/12/17/us/black-children-police-brutalitytrnd/index.html; Jordan E. DeVylder et al., Association of Exposure
to Police Violence With Prevalence of Mental Health Symptoms
Among Urban Residents in the United States, JAMA Network
Open (Nov. 21, 2018), available at https://jamanetwork.com/
journals/jamanetworkopen/fullarticle/2715611

31
IV.

THERE
WAS
NOT
REASONABLE
SUSPICION TO SEIZE PETITIONER.

The Court of Appeals would not have resorted to a
balancing approach, if the totality of circumstances as
analyzed in accordance with Navarette had given rise
to reasonable suspicion. Navarette and Mr. Trott’s case
are not both “close” cases, and, for the reasons stated,
the Court of Appeals’s balancing approach cannot make
up the difference.
Whereas Navarette involved “more than a
conclusory allegation of drunk or reckless driving,”
with the anonymous caller alleging specific “conduct
[that is] a significant indicator of drunk driving,” 572
U.S. at 403, the anonymous tip in Mr. Trott’s case was
nothing more than a conclusory allegation, the dispatch
reporting an allegation of an “intoxicated driver.”
Despite Navarette’s emphasis on the specific substance
of the tip, in contrast to a “conclusory allegation,” the
Court of Appeals was satisfied with the conclusory
allegation in Mr. Trott’s case. This satisfaction is not
surprising in light of the conflict over the balancing
approach. Courts that have adopted a balancing
approach have condoned conclusory allegations. See
Crawford, 67 P.3d at 116. Courts that have not adopted
a balancing approach have not condoned them. See
Harris, 668 S.E.2d at 144; Kooima, 833 N.W.2d at 212;
Stanage, 893 N.W.2d at 531. Following Navarette, the
need for clarification thus extends from the propriety
of the balancing approach to the propriety of upholding
stops based on conclusory allegations of drunk or
reckless driving.

32
The Court of Appeals conceded that “on its own,
such a ‘bare bones,’ conclusory allegation would not
suffice to support a stop.” Pet. App. 22a. But the Court
of Appeals then attempted to recast a conclusory
allegation as “shorthand” for something specifically
observed. Quoting a pre-Navarette decision by the
Supreme Court of Kansas, the Court of Appeals
reasoned that “although conclusory, an allegation that
a person is intoxicated is ‘the kind of shorthand
statement of fact that lay witnesses have always been
permitted to testify to in court.’” Pet. App. 22a (quoting
Crawford, 67 P.3d at 119).
This begs the question as to what “fact,” if any, was
conveyed through the “shorthand” of the conclusory
allegation, “intoxicated driver.” Did the caller (or
someone reporting to the caller) see Mr. Trott, before
getting into his car, discard a bottle that looked like a
bottle containing alcohol and conclude that he was
intoxicated? See United States v. Hauk, 412 F.3d 1179,
1188 (10th Cir. 2005) (“Even if the informant is wellmeaning, reliance on anonymous uncorroborated tips
could result in searches based on far less than an
objective reasonable basis.”). That the “fact” observed
was something actually suggesting that criminal
activity was afoot is just speculation. “Shorthand,” in
short, does not satisfy Terry’s “demand for specificity.”
392 U.S. at 21 n.18.
That demand was not met in petitioner’s case.
There was nothing specific in the call or the
observations of Corporal Cooper suggesting criminal
activity. J.L., 529 U.S. at 272 (“The reasonable
suspicion here at issue requires that a tip be reliable in

33
its assertion of illegality, not just in its tendency to
identify a determinate person.”). Nor was there any
predictive information in the call by which “to test the
informant’s knowledge or credibility.” Id. at 271. Nor is
there any suggestion that Corporal Cooper ever
attempted to learn more about the tipster or the tip
before stopping Mr. Trott. Contreras, 79 P.3d at 1118
(“[W]e encourage dispatch operators and police officers
to record the names of concerned callers and to obtain
as many facts as possible to determine the credibility
and reliability of each caller.”).
While the Court of Appeals found that that “the tip
was contemporaneous to the reported behavior,” Pet.
App. 22a, there is no basis for inferring that whatever
was witnessed (by whomever) was witnessed
contemporaneously with the call or that any observed
behavior was “startling” or even mildly suspicious.
While Corporal Cooper testified that he likely arrived
on the scene somewhere between two and eight
minutes after being dispatched, there is no evidence as
to when the call by the tipster, as opposed to the
dispatch to Corporal Cooper, was actually placed and
when the tipster witnessed the activity (if any) that led
to the 911 call. In short, there is no basis for inferring
from the tip an ongoing crime.
The 911 call itself was not introduced into evidence
and no evidence was presented with respect to any
“features that allow for identifying and tracing callers,
and thus provide some safeguards against making false
reports with immunity.” Navarette, 572 U.S., at 400.
Neither was there any indication as to whether the
caller was aware that he or she could be identified and

34
traced. In sum, the Court of Appeals’s conclusion that
“the anonymous call was reliable” is incompatible with
Terry, J.L., and Navarette.
The Court of Appeals concluded further that “‘the
observed conduct, when viewed in the context of all the
other circumstances known to the officer, was
indicative of criminal activity.’” Pet. App. 24a (citation
omitted). Here, the Court of Appeals focused on the fact
that Mr. Trott was found in a car parked in front of a
liquor store and the “lateness of the hour[.]” Pet. App.
25a. Yet it is unclear whether the caller (or person
reporting to the caller) was aware of the existence of
the liquor store, and nothing in the call linked the
liquor store to the conclusory allegation. Moreover,
there is no evidence that the liquor store was open or,
if closed, when it had closed, no evidence that the call
came from anyone associated with the liquor store, no
evidence regarding the proximity of any other
businesses, and no evidence regarding Corporal
Cooper’s prior experience, if any, with activities at that
liquor store. Whatever minimal weight, if any, is given
to these facts, they are not enough to turn the
conclusory allegation in petitioner’s case into
reasonable suspicion. The demand of Terry was not
met.

35
CONCLUSION
For the foregoing reasons, the petition for a writ of
certiorari should be granted.
Respectfully submitted,
PAUL B. DEWOLFE
Public Defender
JEFFREY M. ROSS
Assistant Public Defender
Counsel of Record
Office of the Public Defender
Appellate Division
6 Saint Paul Street, Suite 1302
Baltimore, Maryland 21202-1608
(410) 767-8528
jeffrey.ross@maryland.gov
Counsel for Petitioner

